No.____________

In the Supreme Court of the United States

CHAKA LECHAR CASTRO,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
PROOF OF SERVICE
I, James C. Thomas, court-appointed counsel for Petitioner, Chaka LeChar
Castro, do swear that on this date, January 7, 2021, as required by Supreme Court
Rule 29, I have served the enclosed Motion for Leave to Proceed in Forma Pauperis,
Petition for Writ of Certiorari., and attached Appendix on each party to the above
proceeding, or that party’s counsel, and on every other person required to be served,
by emailing the above documents and depositing an envelope containing the above
documents in the U.S. mail properly addressed to each of them and with first-class
postage prepaid, within 3 business days. The names and addresses of those served
are as follows:
Bethany Lipman, US Depart. of Justice, 1301 New York Ave., NW, Ste. 700
Washington, DC 20005; Bethany.Lipman@USDOJ.gov
US Solicitor General, Department of Justice, 950 Pennsylvania Ave. NW,
Room 5616, Washington, DC 20530-0001; SupremeCtBriefs@USDOJ.gov

1

In addition, on January 14, 2021, the undersigned emailed Petitioner’s

Corrected Motion for Leave to Proceed in Forma Pauperis dated January 14,
2021, and another copy of the Petition for Writ of Certiorari and attached
Appendix to the above-named individuals at the email addresses included
above.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 14th day of January, 2021.

JAMES C. THOMAS, P.C.
/s/ James C. Thomas
By: James C. Thomas (P23801)

Counsel for Petitioner

12900 Hall Road, Suite 350
Sterling Heights, MI 48313
586-726-1000
jthomas@orlaw.com

2

